No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
BARRY LYNN BAILEY,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Amended Judgment of the United States District Court for the
Northern District of Texas
Appendix C Judgment and Revocation of Sentence from of the United States
District Court for the Northern District of Texas

APPENDIX A

Case: 19-10763

Document: 00515442154

Page: 1

Case 1:15-cr-00054-C-BU Document 149 Filed 06/05/20

Date Filed: 06/05/2020
Page 1 of 2 PageID 461

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-10763
Summary Calendar

FILED
May 14, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
BARRY LYNN BAILEY,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 1:15-CR-54-3
Before CLEMENT, ELROD, and OLDHAM, Circuit Judges.
PER CURIAM: *
Barry Lynn Bailey appeals the revocation of his supervised release and
the 24-month sentence imposed upon revocation. Bailey’s supervised release
was revoked pursuant to 18 U.S.C. § 3583(g), which requires the mandatory
revocation of supervised release and imposition of a term of imprisonment for
defendants found to have committed certain supervised release violations,
including possessing controlled substances.

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

Case: 19-10763

Document: 00515442154

Page: 2

Case 1:15-cr-00054-C-BU Document 149 Filed 06/05/20

No. 19-10763

Date Filed: 06/05/2020
Page 2 of 2 PageID 462

For the first time, Bailey argues that § 3583(g) is unconstitutional in
light of the Supreme Court’s decision in United States v. Haymond, 139 S. Ct.
2369 (2019), because it does not require a jury determination under a beyonda-reasonable-doubt standard. As he concedes, review of this issue is for plain
error. To prevail on plain error review, Bailey must show a forfeited error that
is clear or obvious and that affects his substantial rights. See Puckett v. United
States, 556 U.S. 129, 135 (2009). If he makes such a showing, this court has
the discretion to correct the error but only if it “‘seriously affect[s] the fairness,
integrity or public reputation of judicial proceedings.’” Id.
The decision in Haymond addressed the constitutionality of § 3583(k),
and the plurality opinion specifically stated that it was not expressing any view
on the constitutionality of other subsections of § 3583, the statute governing
supervised release, including § 3583(g). See Haymond, 139 S. Ct. at 2382 n.7.
Because there currently is no caselaw from either the Supreme Court or this
court extending Haymond to § 3583(g) revocations, we conclude that there is
no error that is clear or obvious. See United States v. Escalante-Reyes, 689 F.3d
415, 418 (5th Cir. 2012) (en banc); United States v. Gonzalez, 792 F.3d 534, 538
(5th Cir. 2015).
Accordingly, the judgment of the district court is AFFIRMED.

2

APPENDIX B

Case 1:15-cr-00054-C-BU Document 112 Filed 05/22/16

Page 1 of 4 PageID 315

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
Abilene Division

UNITED STATES OF AMERICA

AMENDED JUDGMENT IN A CRIMINAL CASE

v.

Case Number: 1:15-CR-00054-O-BL(03)
U.S. Marshal’s No.: 50142-177
Myria Wynn Boehm, Assistant U.S. Attorney
Charles Davis Scarborough, Attorney for the
Defendant

BARRY LYNN BAILEY

On February 25, 2016 the defendant, BARRY LYNN BAILEY, entered a plea of guilty as to Count 2 of
the Indictment filed on August 12, 2015. Accordingly, the defendant is adjudged guilty of such Count, which
involves the following offense:
Title & Section

Nature of Offense

Offense Ended

Count

18:472 and 2 Possession Of Counterfeit
United States Currency and Aiding and
Abetting

18:472 and 2 Possession Of Counterfeit United States
Currency and Aiding and Abetting

June 9, 2015

Two

The defendant is sentenced as provided in pages 2 through 4 of this judgment. The sentence is imposed
pursuant to Title 18, United States Code § 3553(a), taking the guidelines issued by the United States Sentencing
Commission pursuant to Title 28, United States Code § 994(a)(1), as advisory only.
The defendant shall pay immediately a special assessment of $100.00 as to Count 2 of the Indictment
filed on August 12, 2015.

The defendant shall notify the United States Attorney for this district within thirty days of any change of
name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this
judgment are fully paid.

Sentence imposed May 6, 2016.

____________________________________________
REED O’CONNOR
U.S. DISTRICT JUDGE

Signed May 22, 2016.

Case 1:15-cr-00054-C-BU Document 112 Filed 05/22/16
Judgment in a Criminal Case
Defendant: BARRY LYNN BAILEY
Case Number: 1:15-CR-00054-O-BL(3)

Page 2 of 4 PageID 316
Page 2 of 4

IMPRISONMENT
The defendant, BARRY LYNN BAILEY, is hereby committed to the custody of the Federal Bureau of
Prisons (BOP) to be imprisoned for a term of Thirteen (13) months as to Count Two of the Indictment filed
on August 12, 2015.
The defendant is to self-surrender at his own expense, at a facility designated by the U.S. Bureau of
Prisons before 2:00 p.m. on June 7, 2016.
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be placed on supervised release for a term of Two
(2) years as to Count 2 of the Indictment filed on August 12, 2015.
While on supervised release, in compliance with the standard conditions of supervision adopted by the
United States Sentencing Commission, the defendant shall:
( 1)
( 2)
( 3)
( 4)
( 5)
( 6)
( 7)

( 8)
( 9)
(10)
(11)
(12)
(13)

not leave the judicial district without the permission of the Court or probation officer;
report to the probation officer as directed by the Court or probation officer and submit a truthful
and complete written report within the first five (5) days of each month;
answer truthfully all inquiries by the probation officer and follow the instructions of the
probation officer;
support the defendant's dependents and meet other family responsibilities;
work regularly at a lawful occupation unless excused by the probation officer for schooling,
training, or other acceptable reasons;
notify the probation officer within seventy-two (72) hours of any change in residence or
employment;
refrain from excessive use of alcohol and not purchase, possess, use, distribute, or administer
any narcotic or other controlled substance, or any paraphernalia related to such substances,
except as prescribed by a physician;
not frequent places where controlled substances are illegally sold, used, distributed, or
administered;
not associate with any persons engaged in criminal activity and not associate with any person
convicted of a felony unless granted permission to do so by the probation officer;
permit a probation officer to visit the defendant at any time at home or elsewhere and permit
confiscation of any contraband observed in plain view by the probation officer;
notify the probation officer within seventy-two (72) hours of being arrested or questioned by a
law enforcement officer;
not enter into any agreement to act as an informer or a special agent of a law enforcement
agency without the permission of the Court; and,
notify third parties of risks that may be occasioned by the defendant's criminal record or personal
history or characteristics, and permit the probation officer to make such notifications and to
confirm the defendant's compliance with such notification requirement, as directed by the
probation officer.

Case 1:15-cr-00054-C-BU Document 112 Filed 05/22/16

Page 3 of 4 PageID 317

Judgment in a Criminal Case
Defendant: BARRY LYNN BAILEY
Case Number: 1:15-CR-00054-O-BL(3)

Page 3 of 4

In addition the defendant shall:
not commit another federal, state, or local crime;
not possess illegal controlled substances;
not possess a firearm, destructive device, or other dangerous weapon;
cooperate in the collection of DNA as directed by the U.S. probation officer;
shall refrain from any unlawful use of a controlled substance, submitted to one drug test within 15 days
of release from imprisonment and at least two periodic drug tests thereafter, as directed by the probation
officer pursuant to the mandatory drug testing provision of the 1994 crime bill; (Macro MDT1FW)
shall participate in a program approved by the probation officer for treatment of narcotic or drug or
alcohol dependency that will include testing for the detection of substance use, abstaining from the use
of alcohol and all other intoxicants during and after completion of treatment, contributing to the costs of
services rendered (copayment) at a rate of at least $10 per month; (Macro 23AFW)
shall participate in mental health treatment services as directed by the probation officer until
successfully discharged, which services may include prescribed medications by a licensed physician,
with the defendant contributing to the costs of services rendered (copayment) at a rate of at least $10 per
month. (Macro24AFW)
FINE/RESTITUTION
The Court does not order a fine or costs of incarceration because the defendant does not have the
financial resources or future earning capacity to pay a fine or costs of incarceration.
Restitution is not ordered because there is no victim other than society at large.

FORFEITURE
Pursuant to 18 U.S.C. §982(a)(1) and 28 U.S.C. § 2461(c), it is hereby
ordered that the defendant's interest in the following property is
condemned and forfeited to the United States:
1) a HP Envy 4500
copier/printer, Serial No. 52R2404M; 2) a Boston paper cutter; 3) all items
seized by the Abilene Police Department (APD), Abilene, Texas, on June 9,
2015, from Room 245 of the Frontier Inn, Abilene, Texas; 4) all items
seized by the APD on June 9, 2015, from 302 Peach Street, Abilene, Texas;
and 5) all items seized by the APD on June 9, 2015, from 1518 Marshall
Street, Abilene, Texas.

Case 1:15-cr-00054-C-BU Document 112 Filed 05/22/16

Page 4 of 4 PageID 318

Judgment in a Criminal Case
Defendant: BARRY LYNN BAILEY
Case Number: 1:15-CR-00054-O-BL(3)

Page 4 of 4

RETURN
I have executed this judgment as follows:

Defendant delivered on _____________________ to ___________________________________
at ________________________________________________, with a certified copy of this judgment.

United States Marshal
BY
Deputy Marshal

APPENDIX C

Case 1:15-cr-00054-C-BU Document 141 Filed 06/28/19

Page 1 of 12 PageID 421

Case 1:15-cr-00054-C-BU Document 141 Filed 06/28/19

Page 2 of 12 PageID 422

Case 1:15-cr-00054-C-BU Document 141 Filed 06/28/19

Page 3 of 12 PageID 423

Case 1:15-cr-00054-C-BU Document 141 Filed 06/28/19

Page 4 of 12 PageID 424

Case 1:15-cr-00054-C-BU Document 141 Filed 06/28/19

Page 5 of 12 PageID 425

Case 1:15-cr-00054-C-BU Document 141 Filed 06/28/19

Page 6 of 12 PageID 426

Case 1:15-cr-00054-C-BU Document 141 Filed 06/28/19

Page 7 of 12 PageID 427

Case 1:15-cr-00054-C-BU Document 141 Filed 06/28/19

Page 8 of 12 PageID 428

Case 1:15-cr-00054-C-BU Document 141 Filed 06/28/19

Page 9 of 12 PageID 429

Case 1:15-cr-00054-C-BU Document 141 Filed 06/28/19

Page 10 of 12 PageID 430

Case 1:15-cr-00054-C-BU Document 141 Filed 06/28/19

Page 11 of 12 PageID 431

Case 1:15-cr-00054-C-BU Document 141 Filed 06/28/19

Page 12 of 12 PageID 432

